No. 19-783
IN THE

Supreme Court of the United States
_________
NATHAN VAN BUREN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF SERVICE

I, Clifford W. Berlow, hereby certify that I am a member of the bar of this Court
and that I have this 8th day of July, 2020, caused three copies of the foregoing Brief of
the National Association of Criminal Defense Lawyers As Amicus Curiae In Support of
Petitioner to be served via electronic mail and UPS overnight delivery, postage prepaid
on:
Jeffrey L. Fischer
Stanford Law School
Supreme Court Litigation Clinic
559 Nathan Abbott Way
Stanford, CA 94305
jlfisher@law.stanford.edu
Counsel for Petitioner

Noel J. Francisco
Counsel of Record Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent

/s/ Clifford W. Berlow
Clifford W. Berlow

